   July 8, 2004




Contract Audit Followup
Oversight Review of Naval Sea
Systems Command Contract Audit
Followup Process
(D-2004-6-006)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/apo/reports or contact
  the Office of Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Audit Policy and
  Oversight Directorate (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808.
  Ideas and requests can also be mailed to:

                                      OAIG-APO
                       Inspector General, Department of Defense
                          400 Army Navy Drive (Room 1015)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACO                   Administrative Contracting Officer
APO                   Audit Policy and Oversight
ASBCA                 Armed Services Board of Contract Appeals
BCM                   Business Clearance Memorandum
CAFU                  Contract Audit Followup
CAS                   Cost Accounting Standards
DASN (ACQ)            Deputy Assistant Secretary of the Navy (Acquisition Management)
DCAA                  Defense Contract Audit Agency
FAR                   Federal Acquisition Regulation
NAVSEA                Naval Sea Systems Command
NNS                   Newport News
SUPSHIP               Supervisor of Shipbuilding, Conversion, and Repair
         Office of the Inspector General of the Department of Defense
Report No. D-2004-6-006                                                       July 8, 2004
 (Project No. D-2002-OA-0178)

                          Naval Sea Systems Command
                         Contract Audit Followup Process

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers
responsible for ensuring proper and timely settlement of contract audit reports should
read this report. The report explains how to improve the contract audit followup process
and maximize the potential savings to the Government from more effective disposition of
audit findings.

Background. This report addresses the Naval Sea Systems Command contract audit
followup process for ensuring the proper, timely resolution and disposition of contract
audit reports. Resolution is achieved when the contracting officer agrees with the auditor
on the actions to be taken on audit report findings or determines another course of action.
Disposition of a contract audit report occurs when the contractor implements the audit
recommendations or the contracting officer’s decision, a settlement is reached, or the
contracting officer issues a final decision under the Disputes Clause and 90 days elapse
without contractor appeal to the Armed Services Board of Contract Appeals. This report
discusses the Naval Sea Systems Command’s monitoring and dispositioning of audit
findings, collecting penalties, and submitting the status of all Naval Sea Systems
Command contract audit reports semiannually to the Office of the Inspector General of
the Department of Defense. The Naval Sea Systems Command’s semiannual reports for
the 12-month period ending March 31, 2002, included 201 audit reports with total costs
questioned of $864 million. Costs questioned are costs that are not allowable, allocable,
or reasonable according to the Federal Acquisition Regulations.

Results. Administrative contracting officers at Naval Sea Systems Command can
demonstrate and achieve more timely resolution and disposition of audit reports by
correctly reporting when audit reports are resolved, withholding payments to contractors
to achieve corrective action, and identifying and correcting long-standing findings. The
Naval Sea Systems Command should include the contract audit followup process as an
area of special interest in its FY 2004 Procurement Management Review Program.
Administrative contracting officers also need to better document their determinations
concerning costs questioned and waiver of penalties, and collect penalties and interest on
expressly unallowable costs. Finally, administrative contracting officers should verify
information from the Defense Contract Audit Agency to properly report costs questioned
and other status information on their contract audit reports and the Defense Contract
Audit Agency needs to ensure the accuracy of contract audit followup data.

Management Comments and Audit Policy and Oversight Response. The Navy
generally concurred with all recommendations except those regarding withholding of
payments and penalties in response to audit findings. They agreed to include Contract
Audit Followup as a process in Procurement Performance Assessment Program reviews
of the Systems Commands and agreed that better documentation of decisions by
contracting officials to waive penalties is required. However, they stated that penalties
and interest were assessed in some instances and that administrative contracting officers
have broad discretion when assessing penalties and withholdings. We agree that
penalties and interest were assessed in some instances and that administrative contracting
officers have broad discretion when settling audit recommendations. However, penalties
and interest were neither assessed in situations where costs questioned were statutorily
specified as unallowable nor was adequate justification provided for waiving penalties
and interest. In addition, contracting officials must report accurately as well as resolve
and disposition contract audit reports timely in accordance with DoD Directive 7640.2.
Withholds should be used when contractors fail to correct longstanding deficiencies.
Therefore, we request that the Navy provide additional comments on final report
recommendations A.1.b, A.1.c, A.1.d, B.3. and C.1. by September 8, 2004. The Defense
Contract Audit Agency concurred with the recommendation to clarify their guidance.

See Appendix C of the report for a discussion of management comments on the findings
and our responses. The Management Comments section of the report contains the
complete text of Management’s comments.




                                            ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               3

Findings
     A. Timeliness of Resolution and Disposition of Audit Reports        4
     B. Collection of Penalties on Unallowable Costs                    15
     C. Accuracy of Contract Audit Followup Information                 21

Appendixes
     A. Scope and Methodology                                           25
     B. Expressly Unallowable Costs Claimed by NNS                      27
     C. Summary of Navy Comments on the Findings and Audit Policy and
          Oversight Response                                            28
     D. Report Distribution                                             31

Management Comments
     Deputy Assistant Secretary of the Navy (Acquisition Management)    33
     Naval Sea Systems Command                                          34
     SUPSHIP Bath                                                       40
     SUPSHIP Groton                                                     43
     SUPSHIP Newport News                                               44
     SUPSHIP Gulf Coast                                                 52
     Defense Contract Audit Agency                                      61
Background

    The Inspector General Act of 1978, as amended, section 8(c)(7), requires the
    Inspector General to develop policy, evaluate program performance, and monitor
    actions taken by all components of the Department in response to contract audits.

    Contract Audit Followup. The Office of Management and Budget
    Circular No. A-50 (OMB Circular A-50), “Audit Followup,” September 29, 1982,
    states policies and procedures for Executive agencies to establish followup
    systems to assure prompt and proper resolution and implementation of audit
    recommendations. OMB Circular A-50 requires agencies to maintain accurate
    records of the status of audit reports and recommendations through the entire
    process of resolution and disposition. Resolution is achieved when the auditor
    and the contracting officer agree on the actions to be taken on audit report
    findings, or when the contracting officer determines another course of action.
    Disposition of the contract audit report occurs when the contractor implements
    the audit recommendations or the contracting officer’s decision, a settlement is
    reached, or the contracting officer issues a final decision under the Disputes
    Clause and 90 days elapse without contractor appeal to the Armed Services Board
    of Contract Appeals (ASBCA).

    DoD Directive 7640.2, “Policy for Followup on Contract Audit Reports,”
    February 12, 1988, as amended August 16, 1995, implements OMB Circular A-50
    and establishes DoD policies, responsibilities, reporting requirements, and
    followup procedures for contract audit reports. Secretaries of the Military
    Departments and Directors of Defense agencies are required by DoD
    Directive 7640.2 to maintain adequate followup systems for the proper and timely
    resolution and disposition of contract audit reports. Contract audit reports should
    be resolved within 6 months of issuance and dispositioned, or closed, as soon as
    possible thereafter. Audit reports are considered overage if not dispositioned
    within 12 months of issuance. DoD Directive 7640.2 also requires all DoD
    Components to submit semiannual status reports on reportable contract audits to
    the Inspector General of the Department of Defense for the 6-month periods
    ending March 31 and September 30 and specifies what information should be
    reported and what format should be used. That information is included in the
    Inspector General’s Semiannual Report to Congress, in accordance with the
    Inspector General Act of 1978, as amended.

    Defense Contract Audit Agency. The Defense Contract Audit Agency (DCAA)
    provides financial advisory services to all DoD Components. The DCAA audits
    contractor costs, identifies costs that are questionable according to the Federal




                                         1
           Acquisition Regulation, and reports such costs questioned to Government
           contracting officers. The DCAA issues reports resulting from several types of
           reviews of Government contractors, such as reviews of:

                   •    internal control (financial) systems to evaluate the adequacy of
                        internal controls over contractor accounting and other management
                        systems;

                   •    cost accounting practices to assess contractor compliance with the cost
                        accounting standards (CAS) and its disclosed accounting practices;

                   •    operations to improve the economy and efficiency of current and
                        planned business operations; and

                   •    incurred costs to determine whether costs charged to Government
                        contracts are allowable, allocable, and reasonable.

           Administrative contracting officers (ACOs) are responsible for negotiating and
           administering contract costs, including overhead costs, and for applying penalties
           required by law, as appropriate.

           Naval Sea Systems Command. The Naval Sea Systems Command (NAVSEA)
           is the Navy’s central activity for designing, engineering, integrating, building, and
           procuring ships and shipboard weapons and combat systems. NAVSEA has 10
           Supervisor of Shipbuilding, Conversion, and Repair (SUPSHIP) offices that
           administer contracts to manage and deliver ships from private shipyards and
           oversee repairs during a ship’s lifetime. Contract audit followup (CAFU)
           processes at five SUPSHIPs (Bath, Maine; Groton, Connecticut; Newport News,
           Virginia; New Orleans, Louisiana; and San Diego, California) are discussed in
           this report. On October 1, 2003, SUPSHIP New Orleans and SUPSHIP
           Pascagoula, Mississippi, were disestablished and replaced by a new command,
           SUPSHIP Gulf Coast.1

           NAVSEA has established policies and procedures for implementing DoD
           Directive 7640.2 requirements in the NAVSEA Contracts Directorate
           Instruction 7640.2, “Followup on DCAA Contract Audit Reports,” January 15,
           1992. NAVSEA administers approximately 40 percent of the contract audit
           reports issued to the Navy and reportable under DoD Directive 7640.2. These
           reports comprise approximately 80 percent of the costs questioned in all of the
           Navy’s reportable contract audit reports.




1
    The Navy’s comments and our responses to the findings and recommendations refer to either SUPSHIP
    New Orleans or SUPSHIP Gulf Coast as appropriate. All other narrative in the report refers to SUPSHIP
    New Orleans only.



                                                     2
Objectives

    Our overall objective was to evaluate the NAVSEA CAFU process. Specifically,
    we evaluated the actions taken by administrative contracting officers to ensure the
    timely and proper disposition of contract audit reports and the accuracy of the
    NAVSEA contract audit followup data.




                                         3
                    A. Timeliness of Resolution and
                       Disposition of Audit Reports
                    Administrative contracting officers at five NAVSEA SUPSHIPs did not
                    resolve and disposition contract audit reports within the guidelines in DoD
                    Directive 7640.2. Of 123 reports reviewed, 67 reports exceeded the
                    6-month resolution guideline and 95 reports with costs questioned of
                    $539 million2 exceeded the 12-month disposition guideline. The
                    following actions contributed to the delays:

                             •    Contracting officers did not recognize the distinction between
                                  resolution and disposition.

                             •    Contracting officers were reluctant to use regulatory provisions
                                  that allow for the withholding of monies to encourage
                                  contractor correction of deficiencies.

                             •    NAVSEA did not track the date of the original audit report on
                                  internal control system deficiencies.

                    Uncorrected deficiencies increase audit risk and require expanded audit
                    effort. Because of uncorrected deficiencies, auditors issued additional
                    audit reports that restated the deficiencies in reports on followup internal
                    control system reviews, contractor noncompliances with cost accounting
                    standards, and annual overhead claims. If the date a deficiency is
                    originally reported is not tracked, the same uncorrected deficiency will
                    appear as a new finding each time a followup report is issued.


Resolution and Disposition of Contract Audit Reports

           DoD Directive 7640.2 states DoD policies and procedures, including guidelines,
           for the resolution and disposition of contract audit reports. Resolution is achieved
           when the auditor and the contracting officer agree on the actions to be taken on
           audit report findings or when the contracting officer determines a course of
           action. Disposition of the contract audit report occurs when the contractor
           implements the audit recommendations or the contracting officer’s decision, a
           settlement is reached, or the contracting officer issues a final decision under the
           Disputes Clause and 90 days elapse without contractor appeal to the ASBCA.
           Contract audit reports should be resolved within 6 months of issuance and
           dispositioned, or closed, as soon as possible thereafter. Audit reports are overage
           if not dispositioned within 12 months of issuance. Deviations from these

2
    Amounts for costs questioned in finding A reflect adjustments for errors described in finding C.



                                                       4
guidelines should be fully justified and documented in the contract file. Reports
that meet certain criteria are subject to semiannual status reporting requirements
under the Directive.

Timeliness of Settlements. Of the 125 audit reports sampled, 123 covered four
audit areas: financial systems, CAS, operations, and incurred costs. The two
remaining audits were excluded because there were only one of each type.
Table 1 summarizes the delays in months by location and audit type for each of
the 123 reports that exceeded one or both of the DoD Directive 7640.2 resolution
and disposition guidelines using data through March 31, 2003. For example, at
SUPSHIP Bath, 4 of 11 operations audit reports exceeded the 6-month resolution
guideline by a range of 1 to 12 months. Eight of the 11 reports exceeded the
12-month disposition guideline by a range of 4 to 42 months. As discussed later
in this Finding, the delays shown in Table 1 represent the time taken to resolve
and disposition deficiencies within all types of audit reports except financial
system reports. The financial system reports may also contain deficiencies
identified in prior financial system reports and restated in a followup report.
When the followup report is issued, the prior report is considered closed or
dispositioned, even if the deficiency still exists. Therefore, the delays shown in
Table 1 for financial system reports could be significantly understated.




                                     5
                 Table 1. Audit Report Resolution and Disposition Delays

                                                  Resolution >6 Months   Disposition >12 Months
                                     Total        Reports     Months     Reports      Months
     SUPSHIP and Audit Type          Audits       Delayed     Delayed    Overage      Overage

BATH:
  Financial Systems                    4                                     4          4-29
  Cost Accounting Standards           1
  Operations                          11             4          1-12         8         4-42
  Incurred Costs                      8                                     6          5-27
     Site Total and Average Delay     24             4           4          18          14

GROTON:
  Financial Systems                    8             2         13-49        7          2-43
  Cost Accounting Standards           4                                      3         15-26
  Operations                          7             4           2-24         3          9-18
  Incurred Costs                      9             8           2-51        7          2-45
     Site Total and Average Delay     28            14           23         20           19

NEWPORT NEWS:
  Financial Systems                    9             3          3-58         6         3-69
  Cost Accounting Standards           10             2          4-6          7         1-32
  Operations                           7             3          3-8          4         5-22
  Incurred Costs                      11            11         12-58        11         6-57
     Site Total and Average Delay     37            19           27         28          24

NEW ORLEANS:
  Financial Systems                    9             9          3-18         7         2-12
  Cost Accounting Standards            3             3          8-27         3         2-21
  Operations                           3             1           18          3         12-21
  Incurred Costs                      14            13          6-60        12         6-75
     Site Total and Average Delay     29            26           20         25          19

SAN DIEGO:
  Cost Accounting Standards            1             1          21           1          15
  Operations                           2             1           6           1           1
  Incurred Costs                       2             2          5-9          2          3-6
     Site Total and Average Delay      5             4          10           4           6

         Total                        123           67           21         95          19



       Overall, the five SUPSHIPs depicted in Table 1 had 67 reports (54 percent) that
       exceeded the resolution guideline by an average of 21 months, and 95 (77
       percent) reports that exceeded the disposition guideline by an average of 19
       months. As of March 31, 2003, 53 reports with costs questioned of $315 million
       remained open, and 70 reports with costs questioned of $375 million were


                                              6
    dispositioned. Although the SUPSHIPs continue to reduce their open report
    backlog, the semiannual report for the period ending September 30, 2003, showed
    72 open reports with costs questioned of $305 million.


Actions Taken to Resolve Audit Reports

    The resolution of an audit report demonstrates that the ACO understands the
    issues in the report and has determined and documented a course of action in
    accordance with the DoD Component’s prenegotiation documentation and review
    procedures. For example, audit reports on financial systems are usually resolved
    when the ACO requests a corrective action plan, and incurred cost audit reports
    are resolved when the ACO obtains approval of a pre-negotiation business
    clearance memorandum (BCM). After the ACO resolves an audit report, the
    contractor must correct the deficiencies in the audit report or justify why
    corrective action is unnecessary before the ACO can disposition or close the
    report. Proper reporting of resolution is critical in order for oversight officials to
    monitor ACO progress on closing each audit report and to identify if the ACO or
    the contractor requires increased oversight.

    Reports on Financial Systems and Incurred Costs. ACOs at all five
    SUPSHIPs reviewed did not correctly identify and report resolution dates for 24
    of the 30 financial system reports and 11 of the 44 reports on incurred costs. We
    determined that ACOs had sometimes issued timely memorandums to request
    corrective action plans on financial system deficiencies or prepared pre-
    negotiation BCMs to close incurred cost audits. However, the dates of the
    memorandums were not used to record the resolution in the CAFU system.
    Specialists who administered the reports and recorded the followup information
    incorrectly believed that the resolution occurred when the ACO was ready to
    close the audit and, therefore, delayed reporting the resolution until that time.

            If an ACO determined that deficiencies in an audit report did not warrant
    any action, that determination should have been documented in a timely manner
    in order to resolve and close the audit report. For example, the ACO at SUPSHIP
    New Orleans suspended action on three open and overage financial system reports
    because he believed the deficiencies did not merit corrective action or could
    become irrelevant after the contractor’s implementation of a new business system.
    However, SUPSHIP official files contained neither a determination that the
    deficiencies were insignificant nor a letter from the contractor stating that the
    deficiencies would be addressed and corrected as part of the planned business
    system.




                                          7
Regulatory Provisions for Correcting Deficiencies

     All five SUPSHIPs had overage internal control system or CAS noncompliance
     reports citing long-standing deficiencies. Some deficiencies were identified in
     prior reports or unnecessarily increased the number of reports issued by DCAA.
     The ACOs at these locations had not used regulatory provisions to encourage
     contractor corrective action.

     Disposition of Financial System Reports. Defense Federal Acquisition
     Regulation Supplement Subpart 242.7503, “Procedures,” states that the ACO,
     upon receipt of an audit report identifying significant accounting system or
     related internal control deficiencies, will take the following actions:

                (1) Provide a copy of the report to the contractor and allow 30 days, or
                a reasonable extension, for the contractor to respond.

                (2) If the contractor agrees with the report, the contractor has 60 days
                from the date of initial notification to correct any identified deficiencies
                or submit a corrective action plan showing milestones and actions to
                eliminate the deficiencies.

                (3) If the contractor disagrees, the contractor should provide rationale
                in its written response.

                (4) The ACO will consider whether it is appropriate to suspend a
                percentage of progress payments or reimbursement of costs
                proportionate to the estimated cost risk to the Government, considering
                audit reports or other relevant input, until the contractor submits a
                corrective action plan acceptable to the ACO and corrects the
                deficiencies.

             Federal Acquisition Regulation (FAR) Subpart 32.503-6, “Suspension or
     Reduction of Payments,” provides the Government the right to reduce or suspend
     progress payments under specified conditions, including contractor
     noncompliance with material requirements of the contract. Accordingly, the
     contractor must maintain an efficient and reliable accounting system and controls
     in order to ensure the administration of progress payments.

     Withholding Payments to the Contractor to Correct System Deficiencies. We
     reviewed 30 reports on internal control systems including 13 followup reports—
     12 of which identified uncorrected system deficiencies addressed in a prior report
     of the same subject area. ACOs had not used the regulatory provisions on
     withholding payments to encourage contractor corrective actions. As a result of
     those uncorrected deficiencies, auditors also issued reports on contractor
     noncompliance with CAS and incurred costs that restated the uncorrected
     deficiencies in the internal control system reports. For example:



                                                8
       •   A June 25, 1996, report issued to SUPSHIP NNS on Newport News
           and Dry Dock Company’s indirect cost system stated that the
           contractor had inadequate policies and procedures for identifying and
           excluding unallowable costs from claims and billings to the
           Government. DCAA initially reported at least one deficiency as early
           as March 1992. Although the ACO resolved the report in October
           1996, the contractor never implemented corrective actions. The ACO
           dispositioned the report in March 2003, after awaiting completion of
           the DCAA review of a new financial system that replaced the existing
           system in June 1999. The uncorrected deficiencies caused DCAA to
           expand its audit efforts to identify and report on the expressly
           unallowable costs that the contractor continued to claim in its incurred
           cost submissions. The contractor claimed expressly unallowable costs
           of $19 million in FY 1998 and $15 million in FY 1999. Because the
           system deficiencies remained uncorrected, DCAA issued separate
           CAS noncompliance reports on Newport News and Dry Dock
           Company and Naptheon, Incorporated, a subsidiary with the same
           deficiency.

       •   A November 25, 1997, report issued to SUPSHIP Groton on the
           Electric Boat Corporation initially cited the contractor with partial
           noncompliance with a material management and accounting system
           standard because the contractor refused to provide the ACO with its
           internal audit results. The ACO did not adequately document when
           the audit was resolved prior to its disposition, but the ACO discussed
           options for corrective action with DCAA and the contractor. On
           November 3, 2000, DCAA provided the ACO with a cost impact of
           $381,000 for that deficiency. In June 2002, a followup report restated
           the same deficiency.

        The ACOs at SUPSHIP Newport News and Groton did not withhold
payments to the contractors in those two cases, as of the date of our site visit to
SUPSHIPs NNS and Groton on August 12, 2002 and November 12, 2002,
respectively. The failure to correct financial system deficiencies forces the
auditors to expend additional efforts by reporting restated deficiencies.
Correcting the deficiencies ensures that a contractor’s financial system can be
relied on by the Government and the contractor.

Corrective Actions for CAS Noncompliances. We reviewed 13 reports on
contractor CAS noncompliance—11 of which were overage by up to 32 months.
FAR Subpart 30.6, “CAS Administration,” provides procedures for timely
resolution and disposition of CAS noncompliances. When the contractor does not
submit an accounting change description, a general dollar magnitude of the


                                      9
     change, or a cost impact proposal, as required, the ACO, with assistance from the
     auditor, shall estimate the general dollar magnitude of the cost impact on CAS-
     covered contracts and subcontracts. The ACO may then withhold up to
     10 percent of the amount billed by the contractor on progress payments or public
     vouchers until the submission is furnished. The ACO may disposition the
     noncompliance report after receipt of the submission. None of the 11 overage
     reports had withholding provisions applied to them.


Reporting the Original Date of a System Deficiency

     The ACO may disposition an audit report citing accounting or management
     system deficiencies when the auditors issue a followup audit report on the same
     system. However, if the followup report states that the same deficiency exists,
     DoD Directive 7640.2 requires the agency to track the date the deficiency was
     originally reported in its CAFU system until the deficiency is corrected. Unless
     the original report date is provided, the same deficiency may appear to be a new
     finding each time a followup report is issued, thus masking how long the
     deficiency has remained uncorrected. However, the original report is considered
     closed and the measure of timeliness begins over with the followup report.

     Navy Tracking Procedures. The Navy did not track original report dates
     because it used an outdated 1993 data input model for collecting and reporting
     semiannual CAFU information. The model did not include the requirement to
     record original report dates. That requirement was established in the August 16,
     1995, revision of DoD Directive 7640.2. Therefore, the delays in settling some of
     the NAVSEA system deficiencies exceed the delays shown in Table 1 for reports
     on financial systems. Tracking the date a finding is originally reported is
     essential in order to ensure that management and other oversight activities have
     visibility of long-standing, uncorrected issues that require increased efforts to
     achieve corrective action.

     The Defense Contract Management Agency is developing a DoD-wide CAFU
     data system that will be available to all Military Departments and DoD Agencies
     with CAFU responsibilities. The new system, once implemented, will comply
     with DoD Directive 7640.2 reporting requirements and should enhance the
     accuracy, completeness, consistency, and sharing of information. The Navy is
     participating in the development of the new data system to ensure that it will meet
     the Navy’s CAFU requirements.




                                         10
Management Controls Related to the CAFU Function

    We interviewed officials at the NAVSEA Headquarters and the four SUPSHIP
    contracting offices we visited to determine what management control procedures
    were in place and whether management had reviewed compliance with those
    procedures periodically. The SUPSHIP offices at Bath and Groton performed
    internal oversight reviews of the CAFU function. SUPSHIP New Orleans did not
    specifically identify CAFU as a separate functional area within their overall
    contracting function and SUPSHIP NNS did not test to determine whether
    contracting officers followed CAFU policies and procedures.

    When the CAFU function is identified as an assessable function within an activity
    and reviewed as part of the overall Management Control Program, the resolution
    and disposition of audit issues is more visible, trackable, and therefore more of a
    priority. An example of the priority of the CAFU function was demonstrated at
    SUPSHIP Bath. The ACO at SUPSHIP Bath was pro-active in settling audit
    reports by having bi-weekly meetings with contractor representatives and DCAA
    resident auditors to resolve issues on ongoing and open audits. The ACO is a
    member of a joint integrated process team at SUPSHIP Bath and attends DCAA
    entrance and exit conferences. The ACO also communicates regularly with other
    SUPSHIP contracting officers and NAVSEA headquarters officials on CAFU
    issues.

    The Deputy Assistant Secretary of the Navy, Acquisition & Business
    Management Office has oversight responsibility for the CAFU program. That
    office last reported on the CAFU program in “Procurement Performance
    Management Assessment Program of NAVSEA,” July 23, 1998, which concluded
    that the program was well managed. The report stated that the NAVSEA program
    for tracking contract audits allowed visibility of aged audits and alerted
    contracting officers for possible followup. It did not test whether contracting
    officers actually used the program.

    To facilitate management oversight of followup issues that require attention and
    to improve the accuracy of CAFU data in semiannual reports to Congress, the
    Deputy Assistant Secretary of the Navy, Acquisition & Business Management
    Office should include the CAFU function as a special interest item in its
    “FY 2004 Procurement Performance Management Assessment.” The assessment
    should include control tests of the performance of contracting officers and other
    personnel responsible for the proper implementation of contract audit followup
    policies and procedures and include the audit followup area as an area of special
    interest in the future procurement management review program.




                                        11
Summary

    Contracting officials need to be more aggressive in resolving and dispositioning
    audit reports. The difference between when resolution and disposition occurs
    needs to be understood, implemented, and reported properly for all types of
    reportable audits. Long-standing deficiencies need to be identified and assessed
    from the time of their original reporting to determine if withholding of payments
    to contractors should be used to achieve corrective action.


Navy Comments on the Finding and Audit Policy and
  Oversight Response
    Summaries of Navy comments on the finding and the Audit Policy and Oversight
    (APO) response are in Appendix C.


Recommendations, Navy Comments, and APO Response
    Deleted and Renumbered Recommendations. As a result of management
    comments, we deleted draft Recommendation A.2. and renumbered draft
    Recommendation A.3. as A.2. We recommended in draft Recommendation A.2.
    that NAVSEA establish performance measures for the timely resolution and
    disposition of reportable contract audit reports. The need to establish
    performance measures will be assessed as part of NAVSEA’s FY 2004
    Procurement Management Review Program.

    A. We recommend that the Commander for Contracts, Naval Sea Systems
    Command:

          1. Instruct administrative contracting officers and their staff at
    Supervisor of Shipbuilding, Conversion, and Repair offices to:

                   a. Properly identify, document, and report the resolution of
    financial system and incurred cost audit reports.

    Navy Comments. NAVSEA partially concurred, stating that sufficient guidance
    on the resolution of financial system and incurred cost audit reports already
    exists. The NAVSEA Contracts Directorate will review existing resolution
    procedures with its SUPSHIPs by July 30, 2004.

    APO Response. We consider NAVSEA’s actions to review resolution
    procedures with its SUPSHIPs as meeting the intent of our recommendation.

                  b. Withhold payments to contractors on overage audits to
    encourage contractor correction of accounting and management system
    internal control deficiencies in accordance with Defense Federal Acquisition


                                        12
Regulation Supplement Subpart 242.7503, “Procedures,” Federal
Acquisition Regulation Subpart 32.503-6, “Suspension or Reduction of
Payments,” and Federal Acquisition Regulation Subpart 30.6, “CAS
Administration,” for noncompliances with the cost accounting standards, or
document reasons why withholding is not appropriate.

Navy Comments. NAVSEA partially concurred. NAVSEA stated that the
decision to withhold payments on overage audits is a business decision and each
circumstance must be reviewed and judged on its own merits and not against a
formulaic or automatic approach. Contractors are allowed a reasonable amount of
time to respond to audit findings, and the ACO is obligated to provide DCAA the
opportunity to perform a followup audit. ACOs have wide latitude to execute
their duties and responsibilities in this area once they have fully assessed the
impact and appropriateness of the actions and all parties have had the opportunity
to respond. SUPSHIP ACOs withhold amounts as prudent.

APO Response. The NAVSEA comments are nonresponsive. We agree that
ACOs should implement withholding only after fully assessing the circumstances
of each audit, allowing contractors a reasonable time to respond to audit findings,
and consulting with other parties as necessary. However, we believe that 12
months is a reasonable period to disposition financial system and CAS reports,
rather than 12 months plus delays of up to 69 and 32 months, respectively, as
shown in Table 1 for these types of audits.

The regulations cited in this recommendation provide the ACO with the
discretion on whether to use withholding. However, we disagree that the
SUPSHIP ACOs have withheld amounts as appropriate on the overage financial
system and CAS audits in our sample. Except for the SUPSHIP Groton example
cited in the report, we found no evidence that any of the SUPSHIP ACOs were
assessing whether withholding was appropriate, documenting their determination,
or actually using withholding on overage reports. We also identified many
financial system and CAS reports in which the time allowed to the contractor by
the ACO to adequately respond to audit findings had substantially exceeded
regulatory timeframes.

We also disagree that the ACO is obligated to provide DCAA the opportunity to
perform a followup audit before closing the prior audit. ACOs must close an
audit when it meets the disposition requirements of DoD Directive 7640.2. For
example, financial system audits can be closed when the contractor either
implements, or agrees to implement, corrective action. The ACO may request a
followup audit if the original audit was not timely dispositioned or to evaluate
implementation of the contractor’s corrective action. We request NAVSEA
reconsider their comments in responding to the final report.

              c. Track and report the date an audit report first identifies an
accounting and management system deficiency that is restated in a followon
report in accordance with DoD Directive 7640.2, paragraph 6.3.4.1, “Policy
for Followup on Contract Audit Reports.”




                                    13
Navy Comments. NAVSEA partially concurred. The Navy CAFU report
program is the responsibility of the Deputy Assistant Secretary of the Navy
(Acquisition Management) (DASN (ACQ)). Since NAVSEA cannot modify the
tracking and reporting mechanism of this program, NAVSEA suggested that the
recommendation be redirected to the DASN (ACQ). The DASN (ACQ) stated
that it would begin to adjust the dates of supplemental audits to those of the
original audits.

APO Response. We request that the DASN (ACQ) and NAVSEA reconsider
their comments in responding to the final report because the current Navy CAFU
report program can accommodate the tracking of original report dates. Neither
DASN (ACQ) nor NAVSEA should adjust the report dates of supplemental
reports to those of the original audits. The report date of each supplemental
report is a critical field and must be accurately maintained. NAVSEA should
instead begin tracking the original issue date using either the Remarks or
Narrative fields for each report until the Navy is fully participating in the new
CAFU system.
              d. Prepare an action plan for the timely and proper resolution
and disposition for each audit report addressed in this report and that is still
open.

Navy Comments. NAVSEA partially concurred, stating that
NAVSEAINST 7640.2 already includes a requirement to maintain a milestone
schedule of all reportable audits. ACOs identify and report these milestones for
each open audit in their CAFU reports.

APO Response. The NAVSEA comments are not responsive. As of March 31,
2004, 26 sampled audit reports with total costs questioned of $163 million were
still open. These reports were issued between July 1999 and March 2002. Each
of these overage reports requires an aggressive action plan to expedite resolution
and disposition. Each plan must include the ACO’s determination on whether
withholding or notification of intent to disallow costs should be used. We request
that NAVSEA reconsider its position on the recommendation and provide
comments on the final report.

       2. Include the contract audit followup function as an area of special
interest in “FY 2004 Procurement Management Review Program.”

Navy Comments. NAVSEA concurred.




                                    14
            B. Collection of Penalties on Unallowable
               Costs
            Although required by Title 10, United States Code, Section 2324(b),
            “Penalty for Violation of Cost Principle,” ACOs at three SUPSHIP offices
            did not appropriately assess penalties or justify waivers of penalties for
            expressly unallowable costs. Eleven of 14 audits had penalties
            recommended but penalties were not assessed. The ACOs improperly
            waived penalties and interest on expressly unallowable costs in excess of
            $5.6 million.


Requirements for Assessing Penalties

     In 10 U.S.C. 2324(b), it is stipulated that a penalty shall be assessed if a
     contractor submits costs that are expressly unallowable according to the FAR in a
     proposal for settlement of indirect costs. The penalty shall be equal to the amount
     disallowed and allocated to contracts covered by the provision, including interest.
     The contracting officer may apply double penalties if a contractor submits the
     same type of unallowable costs in subsequent overhead claims. The head of an
     agency may issue a waiver from penalties if one of three conditions exists:

                1. The contractor withdraws the proposal before the formal initiation
                   of an audit and resubmits a new proposal;
                2. The contractor demonstrates, to the satisfaction of the ACO, that it
                   has established appropriate policies that preclude unallowable
                   costs subject to penalties from being included in indirect cost
                   proposals; or
                3. The ACO is satisfied that the unallowable costs subject to penalties
                   were inadvertently incorporated into the proposal.

     The FAR Subpart 42.7, “Indirect Cost Rates,” implements 10 U.S.C. 2324(a)
     through (d) and covers the assessment of penalties against contractors that include
     unallowable costs in final indirect cost rate proposals. If unallowable costs
     exceed $10,000, the cognizant contracting officer shall issue a final decision,
     including a demand for payment of any penalty assessed unless a waiver is
     obtained in accordance with the regulations. The contracting officer’s final
     decision to the contractor shall state that the determination is a final decision
     under the Disputes clause of the contract. It is not necessary for unallowable
     costs to have been paid to the contractor in order to assess the penalty, and



                                         15
     demanding payment of the penalty is separate from demanding repayment of any
     paid portion of the disallowed costs.


Assessment of Penalties

     The SUPSHIP ACOs did not enforce the statute to apply penalties on expressly
     unallowable costs.

     SUPSHIP New Orleans. The ACO waived penalties and interest of more than
     $1.7 million for expressly unallowable depreciation costs. The DCAA reports for
     FY 1996 through FY 1999 questioned the excess depreciation and recommended
     penalties and interest. The ACO received legal advice that supported the audit
     position. The BCM documenting the settlement showed that the ACO had
     calculated the penalty and interest applicable to the expressly unallowable
     depreciation costs ($476,605) for FY 1997 through FY 1999, but the ACO used
     the following factors in deciding not to assess the penalties and interest:

        •   Since January 1998, the contractor had asserted disagreement with the
            DCAA interpretation of the FAR;
        •   An ASBCA case was open on a similar case (Kearfott Guidance and
            Navigation Corporation versus Donald H. Rumsfeld, Secretary of
            Defense) from March 1998 until June 29, 2001; and
        •   Litigation costs would probably exceed $476,605.

     For FY 1996, which was the first year that penalties could be applied, the ACO
     did not address the $1,208,503 that DCAA recommended for penalties and
     interest.

            Justification for Waiver. Although the BCM explained why the ACO
     had waived penalties, the explanations did not address specific conditions under
     which a waiver may be granted according to the statute.

     We do not consider the reasons listed to be appropriate. The ASBCA case
     mentioned was decided prior to the May 2003 settlement. In that case, Kearfott
     Guidance and Navigation Corporation versus Donald H. Rumsfeld, Secretary of
     Defense, No. 02-1039, the U.S. Court of Appeals Federal Circuit ruled on
     February 25, 2003, that the Government had properly applied the FAR cost
     principle when disallowing the increased depreciation costs resulting from asset
     write-ups. Although the SUPSHIP New Orleans BCM cited the decisions by the
     Court of Appeals and the ASBCA, the memorandum did not explain why the case
     would not uphold the assessment of penalties because the case was decided in
     favor of the Government.



                                         16
The consideration of litigation costs was also inappropriate. NAVSEA legal
council had previously advised that penalties were appropriate. The
memorandum recommended that penalties be imposed in amounts calculated by
DCAA and that a demand letter be issued to the contractor. The litigation costs
should not have been considered because of the legal position and because the
court decision supported the auditor recommendation.

None of the reasons the ACO used for waiving the penalties were in accordance
with the statute—that the contractor withdraws the proposal before formal
initiation, that the contractor demonstrates it has established policies that preclude
unallowable costs in proposals, or that the ACO is satisfied that unallowable costs
were inadvertently incorporated into the proposal.

SUPSHIP NNS. At SUPSHIP NNS, the BCMs for five audit reports did not
adequately explain the negotiated treatment of expressly unallowable costs and
the audit recommendations of penalties related to those costs. The BCMs that
settled FY 1994 through FY 1997 contractor overhead expenses closed four
reports covering NNS Shipbuilding & Dry Dock Company and one report on its
home office, the Tenneco Corporation. The expressly unallowable costs for NNS
Shipbuilding & Dry Dock Company for the four FYs totaled approximately $3.9
million, as shown in Table 2. A breakdown of those costs is listed in Appendix B.
Those cost elements were identified by the SUPSHIP office as unallowable costs
subject to penalties in FY 1996 and FY 1997.

  Table 2. Schedule of Expressly Unallowable Costs Claimed by the Contractor

    FY 1994           FY 1995             FY 1996          FY 1997             Total

    $75,596           $274,986         $1,657,592        $1,888,100         $3,896,274


       Assessment of Penalties. The BCMs for FY 1994 through FY 1996
included the general statement that costs questioned had been sustained and had
been settled 50-50 as part of a lump sum amount, which was considered
immaterial and which represented contractor unintentional errors. The
memorandum explained that the penalties were waived due to the difficulties in
negotiating old contractor overhead expenses with the contractor and the need to
expedite the closeout of old contracts. Although the FY 1997 BCM, which was
completed in August 2003, included explanations on expressly unallowable costs,
the BCM did not adequately explain the waiver of penalties.




                                     17
We do not believe a determination to waive penalties should be made when the
contractor has long-standing uncorrected deficiencies for incomplete submissions
and inadequate policies and procedures in the accounting system.

       Documentation Requirements. FAR Subpart 42.705-1, “Contracting
Officer Determination Procedure,” requires the contracting officer to prepare a
BCM covering:

       •   the disposition of significant matters in the advisory audit report,

       •   reconciliation of all costs questioned with identification of items and
           amounts allowed or disallowed in the final settlement,

       •   reasons why any recommendations of the auditor or other Government
           advisors were not followed, and

       •   identification of cost or pricing data submitted during the negotiations
           and relied upon in reaching a settlement.

The ACO failed to properly address the audit recommendations for expressly
unallowable costs and the assessment of penalties and interest. The contracting
officer should also have notified the contractor of the individual costs that were
considered unallowable and the respective amounts of the disallowance. FAR
Subpart 42.801, “Notice of Intent to Disallow Costs,” states that the contracting
officer may issue the notice as early as possible during the monitoring of
contractor costs related to cost-type and flexibly priced contracts. Early notice to
the contractor provides for timely resolution of any resulting disagreement.

The failure of the SUPSHIP NNS ACO to collect penalties on expressly
unallowable costs has been previously reported. In our report, IG DoD Report
No. PO 97-056 “Defense Hotline Allegations Concerning Contract Audit
Recommendations,” September 29, 1997, we stated that an ACO had no
justification to waive $7.8 million in penalties that DCAA recommended he
assess on unallowable costs included by NNS in its FY 1989 and FY 1990
incurred costs submissions. We recommended that SUPSHIP NNS contracting
officials receive training in negotiation principles and procedures. NAVSEA
concurred.

SUPSHIP Groton. The ACO did not adequately explain a waiver of
recommended penalties on unallowable costs of $18,105 in its FY 1995 BCM.
According to FAR Subpart 42.801, if unallowable costs exceed $10,000, the
cognizant contracting officer shall issue a final decision, including a demand for




                                     18
    payment of any penalties assessed, unless waived. There was no documentation
    for waiving the penalty. By not addressing the cost, future overhead submissions
    containing the same expressly unallowable costs cannot result in double penalties.

    Summary. The failure by the ACO to properly assess contractor penalties
    resulted in the Government losing more than $5.6 million. That failure also
    precluded the Government from applying double penalties to future incurred cost
    submissions that contained the same unallowable costs because the ACO had not
    put the contractor on notice for those costs. 10 U.S.C. 2324(b) was enacted to
    make contractors diligent in excluding expressly unallowable costs. Contractors
    may continue to claim expressly unallowable costs until the ACOs adhere to the
    statute for assessing penalties. The ACOs should notify the contractors that
    previously claimed unallowable costs would not be accepted in future
    submissions and that penalties will be applied if included.


Navy Comments on the Finding and APO Response
    Summaries of Navy comments on the finding and the APO response are in
    Appendix C.


Recommendation, Navy Comments, and APO Response

    B. We recommend that the Commander for Contracts, Naval Sea Systems
    Command, instruct administrative contracting officers to:

           1. Enforce the requirements of Title 10, United States Code,
    Section 2324(b), “Penalty for Violation of Cost Principle,” for assessing
    penalties and interest on unallowable costs. If waivers are granted, they
    should be documented to reflect compliance with 10 U.S.C. paragraph
    2324(c) as implemented by Federal Acquisition Regulation Part 42.709-5,
    “Waiver of the Penalty.”

    Navy Comments. NAVSEA partially concurred. The Contracts Directorate will
    review issued guidance with the SUPSHIPs concerning the requirements for
    assessing penalties and interest on unallowable cost and properly documenting the
    file. The estimated completion for this is 30 July 2004.

    APO Response. NAVSEA comments and planned actions meet the intent of the
    recommendation.




                                        19
       2. Comply with Federal Acquisition Regulation Part 42.705-1,
“Contracting Officer Determination Procedure,” on documenting
determinations concerning costs questioned and auditor-recommended
penalties in order to ensure the consistent application of cost principles and
cost accounting standards.

Navy Comments. NAVSEA concurred. The Contracts Directorate will remind
NAVSEA ACOs to ensure files and business clearance memoranda contain
adequate documentation regarding the ACO determinations concerning costs
questioned and auditor recommended penalties. Estimated completion date is
July 30, 2004.

       3. Issue a notice of intent to disallow costs on expressly unallowable
costs previously claimed in proposals in accordance with Federal Acquisition
Regulation Part 42.801, “Notice of Intent to Disallow Cost.”

Navy Comments. NAVSEA partially concurred. NAVSEA stated that ACOs
have broad discretion in determining and interpreting FAR and DFARS
regulations. Mere allegation of unallowable costs should not result in an
automatic notice to disallow such costs. DCAA initial findings may not be
accurate and are revised upon rebuttal by the contractor or the ACO. Such
discretion should be permitted for the ACO to exercise the authority delegated.
However, NAVSEA will issue guidance to remind NAVSEA ACOs of the
guidance regarding the determination of notices to disallow costs to contractors
on unallowable costs by July 30, 2004.

APO Response. We agree that ACOs have broad discretion in applying the
regulations applicable to unallowable costs after fully assessing the circumstances
of each audit. However, the statute specifically lists the expressly unallowable
costs that should not be claimed by the contractor.

We concur with NAVSEA’s plans to issue guidance on the responsibilities of
NAVSEA ACOs to use notices of intent to disallow costs to contractors.
However, we believe that the SUPSHIP NNS ACO must issue a notice to
Newport News Shipbuilding & Dry Dock Company of his intent to disallow
previously claimed expressly unallowable costs if included in subsequent claims.
We believe the notice is required due to the significant amounts of expressly
unallowable costs included in prior year submissions by Newport News
Shipbuilding & Dry Dock Company as well as the SUPSHIP NNS ACO’s failure
to assess penalties in all instances. Although the SUPSHIP NNS ACO is
currently pursuing assessment of penalties as part of its FY 1998 incurred cost
settlement, the notice is needed to encourage prompt corrective action by
Newport News Shipbuilding & Dry Dock Company and reduce the risk of future
disputes. We request NAVSEA and SUPSHIP NNS reconsider their comments in
responding to the final report.




                                    20
           C. Accuracy of Contract Audit Followup
              Information
           The Navy’s semiannual reports for the periods ending September 30,
           2001, and March 31, 2002, contained incorrect costs questioned amounts
           for 29 of 45 NAVSEA incurred cost audits, excluded 8 reportable audits
           that should have been included, and included 13 nonreportable audits.
           Incorrect costs questioned and improperly reported data resulted from
           contracting officials:

                  •    relying on DCAA adjusted amounts instead of verifying the
                       costs questioned amounts with the audit reports, and

                   •   failing to understand the reporting requirements of DoD
                       Directive 7640.2 by including amounts for corporate
                       allocations not under their cognizance, by failing to adjust
                       costs questioned based on supplemental audit reports, and by
                       incorrectly identifying reportable audits.

           The lack of adequate management controls resulted in significant errors in
           the data in the NAVSEA followup system. Therefore, Congress and the
           Navy do not have accurate data to determine whether audit findings are
           sustained.


Reporting of Questioned Incurred Costs

    The DoD Directive 7640.2, “Contract Audit Followup,” defines incurred cost
    audits that have $100,000 or more in costs questioned as reportable. Costs
    questioned are the total amount questioned in the audit report, regardless of
    contract mix or percentage of commercial business that the reporting contracting
    official has responsibility and authority to disposition.

    DCAA audit reports generally contain an exhibit that shows the costs questioned.
    DCAA also provides contracting officials with a monthly electronic transmission
    of reports issued during the month that includes the amount of costs questioned
    for each report. Although DCAA provides the information, the contracting
    official is responsible for determining the amount that is reported in the CAFU
    system.

    Costs Questioned Understated in the Followup System. Four of the five
    SUPSHIP offices recorded incorrect costs questioned for 29 of 45 incurred cost


                                       21
           audit reports reviewed. Two of the four offices, NNS and New Orleans, relied on
           incorrect costs questioned data obtained from the auditors, which was incorrectly
           recorded in the Navy followup system. At SUPSHIP New Orleans, 15 audit
           reports understated costs questioned by $11.5 million (36 percent) because the
           contracting officials incorrectly relied on the auditor’s adjusted costs questioned
           for Government participation3. At SUPSHIP NNS, the contracting officials
           understated costs questioned for six audit reports by approximately $20 million4
           (29 percent) because the contracting officials used the costs questioned provided
           by DCAA, which had been reduced for government participation and adjusted for
           negotiation results and other improper exclusions.

           Although the costs questioned submitted to SUPSHIPs Bath and Groton were not
           reduced for Government participation, those offices also had incorrect amounts in
           the followup system. SUPSHIP Bath included costs questioned from corporate
           audit reports, which resulted in overstated costs questioned. An audit report on
           divisional overhead may include the results of a corporate audit; however, each
           divisional or corporate ACO should only track and report the amount questioned
           that he or she is responsible for negotiating at the division or corporate level.
           SUPSHIP Groton did not recognize the costs questioned in five reports, thus
           incorrectly reporting questioned costs.

           DCAA Guidance on Reportable Costs Questioned. The DCAA Management
           Information Systems Manual correctly described the procedures for reporting
           costs in accordance with the DoD Directive for contract audit followup purposes.
           However, the two field audit offices that adjusted costs questioned for
           Government participation followed separate guidance for internal reporting
           purposes. The worksheet used for internal reporting was incorrectly used for
           DoD Directive 7640.2 reporting. We discussed the discrepancies that resulted
           from the two sets of instructions with DCAA headquarters management. They
           agreed that audit guidance needed clarification.


Compilation of Reportable Audits

           We found 13 audits included in the Navy’s semiannual reports by the five
           SUPSHIPs that did not meet the criteria for being reported, as well as eight
           reportable audits excluded from these semiannual reports, which should have
           been included. Each SUPSHIP incorrectly reported at least 1 of the 13 audits that
           did not meet the DoD Directive 7640.2 definition of a reportable audit. The
           Directive requires that reportable audits fall within one of several specified

3
    Government participation means the costs questioned applies only to Government cost-type and fixed-
    price incentive contracts.
4
    This is SUPSHIP NNS data which has not been verified. Our initial assessment was approximately $83
    million.



                                                     22
    categories and contain findings and recommendations that require followup.
    Three of the 13 nonreportable audits represented data errors that neither
    SUPSHIP nor DCAA officials could explain. The remaining 10 reports did not
    include findings and recommendations that required followup.

    The eight omitted reports were addressed to SUPSHIP New Orleans and covered
    open incurred cost audits for FY 1992 through FY 1996 with total costs
    questioned of $7.4 million. SUPSHIP CAFU officials require an increased
    awareness of the requirements for accurately determining audits that are
    reportable under the Directive.

    The Defense Contract Management Agency is developing a web-based CAFU
    system that may be of benefit to the Navy. The new system should help eliminate
    those types of errors. The system will be available for use by all Military
    Departments and DoD Agencies with CAFU responsibilities. The system will
    accept direct downloads from the DCAA information system of contract audit
    report numbers and sufficient information to enable contracting officers to
    process reportable audits. The system will incorporate edit checks and required
    data entry fields to minimize errors.


Navy Comments on the Finding and APO Response
    Summaries of Navy comments on the finding and the APO response are in
    Appendix C.


Recommendations, Navy Comments, and APO Response

    C.1. We recommend that the Commander for Contracts, Naval Sea Systems
    Command, improve management controls at SUPSHIPs by enforcing the
    reporting requirements in DoD Directive 7640.2, “Policy for Followup on
    Contract Audit Reports,” and by requiring that data received by contracting
    officials be verified against the DCAA audit report.

    Navy Comments. NAVSEA partially concurred. Upon receipt of contract audit
    reports, the ACO identifies any discrepancies in the “Internal Remarks” portion of
    the Audit Information Form in the quarterly updates. This form is part of the
    Navy’s automated reporting system that ACOs are required to use for the CAFU
    program. As part of implementing Recommendation A.2, NAVSEA will review
    the CAFU management control process.




                                        23
APO Response. The NAVSEA comments are nonresponsive. Using the Navy’s
semiannual reports for the periods ending September 30, 2001 through
September 30, 2003, we re-examined the information in both the Internal
Remarks and Narrative fields for each of the 29 incurred cost audits with
discrepancies in reported costs questioned. Although some of the 29 records
contained limited information on adjustments to costs questioned, none of the
records had sufficient information to resolve the discrepancies we identified.

We have no objection to using the Internal Remarks or Narrative fields to provide
information on costs questioned adjustments. However, including explanations in
these fields without adjustment of the costs questioned field is not adequate. That
field must be kept accurate so costs questioned information can be readily
summarized for oversight purposes including OIG DoD semiannual reporting.
ACOs need to be instructed on the requirement to keep the costs questioned field
accurate.

We request that NAVSEA reconsider its position on the recommendation and
provide comments on the final report.

C.2. We recommend that the Director, Defense Contract Audit Agency,
clarify the need for accurate reporting of incurred costs questioned in audit
reports.

DCAA Comments. DCAA concurred, stating that they clarified the definition of
costs questioned in their internal management information system, and would
issue guidance to emphasize the accurate reporting of costs questioned using the
web-based CAFU system.




                                    24
Appendix A. Scope and Methodology
   We evaluated the accuracy of the data in the NAVSEA semiannual reports
   prepared to comply with the DoD Directive 7640.2 and reviewed NAVSEA
   policies and procedures that implement the Directive. We interviewed managers
   at NAVSEA (Resources & Contract Policy Division) headquarters and
   contracting officials and audit managers at SUPSHIP locations in Newport News,
   VA; New Orleans, LA; Groton, CT; and Bath, ME. In addition, we performed
   desk reviews of reportable audits received from SUPSHIP San Diego, CA. At all
   of the above locations we:

      •   determined whether audit reports were resolved and dispositioned in a
          timely manner by reviewing their chronology of events and ascertaining
          whether the resolution and disposition dates fell within the prescribed
          guidelines—6 months for resolution and 12 months for disposition. We
          identified the reasons for any delays and determined whether the delays
          were justified. For open reports, we evaluated the written plan of action to
          determine if it was reasonable.

      •   evaluated the proper settlement of each closed reportable audit by
          examining whether settlement documentation was generally prepared in
          accordance with regulations and whether contracting officials addressed
          all significant audit recommendations, provided a rationale for not
          sustaining any costs questioned, and collected applicable penalties. We
          looked for management oversight through review boards or other means.

      •   assessed the accuracy of NAVSEA data within the Navy’s semiannual
          reports to the Office of the Inspector General of the Department of
          Defense by comparing the semiannual report information to the data in the
          DCAA monthly reports and SUPSHIP official file documentation and by
          making inquiries to SUPSHIP and DCAA officials.

   We performed this review from July 2002 through November 2003 in accordance
   with Office of the Inspector General policies and procedures.

   Use of Computer-Processed Data. The Navy maintains a Navy-wide computer
   program for processing contract followup information, which we relied on. We
   also relied on computer-based data from the DCAA Management Information
   System to identify reportable audits sent to NAVSEA for resolution and
   disposition. Although we did not perform a formal reliability assessment of the
   computer-processed data from either system, we did determine that the



                                       25
    assignment numbers, costs questioned, and other relevant data for the selected
    audit reports generally agreed with the computer-processed data. We did not find
    errors that would preclude the use of the data to meet the audit objectives or that
    would change our report conclusions.

    We consolidated information from two NAVSEA semiannual reports for the
    periods ending September 30, 2001, and March 31, 2002, to select a sample for
    evaluating the resolution and disposition of audit reports. The process yielded a
    universe of 201 audits with total costs questioned of $864 million, including
    140 audits at the following five SUPSHIP locations:

           •   26 audits at Bath, Maine;

           •   33 audits at Groton, Connecticut;

           •   41 audits at Newport News, Virginia;

           •   33 audits at New Orleans, Louisiana; and

           •   7 audits at San Diego, California.

    We visited each location except San Diego and reviewed file documentation for
    125 of the 140 audit reports selected. We excluded the remaining 15 reports
    because they were either erroneously included in the CAFU system or involved in
    litigation.


Prior Coverage

    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD) has issued 4 reports related to the Contract Audit Followup process.

    IG DoD Report No. D-2002-6-009, “The Army Contract Audit Followup
    Process,” September 18, 2002

    IG DoD Report No. 00-003, “The Air Force Contract Audit Followup System,”
    October 4, 1999

    IG DoD Report No. 99-057, “Settlement of Contractor Incurred Indirect Cost
    Audits,” December 21, 1998

    IG DoD Report No. 99-048, “Dispositioned Defective Pricing Reports at the
    Naval Air Systems Command,” December 8, 1998




                                        26
Appendix B. Expressly Unallowable Costs
            Claimed by NNS

   Unallowable Cost Element      FY 1996        FY 1997     FAR Clause
   Back Pay                      $399,212        $27,501        31.205-6
   Below Market Rate Loans                0       44,296       31.205-35
   Bonus Signing                      66,811     145,328        31.205-6
   Consultants                            0      488,065    31.205-27, 47
   Contributions                          0         3,000       31.205-8
   Excess Compensation                17,072      70,665     31.205-6, 35
   Idle Assets                            0      302,792       31.205-17
   Leased Property                        0       58,877       31-205-22
   Lobbying Costs                     47,095     171,644       31.205-22
   Lost Discounts                     98,991      40,679       31.205-26
   Patents and Trademarks            246,783      73,344       31.205-30
   Promotional Material              430,901           0        31.205-1
   Public Relations                  240,836     181,147     31.205-1,13,
                                                               22, 14, 51
   Recruiting and Relocation              0      110,209    31.205-20, 35
   Spousal Travel                     15,312      15,288       31.205-46
   Stock Appreciation Rights          94,301      31,075        31.205-6
   Stock Dividends/Incentives           278      124,190        31.205-6
      Total                     $1,657,592     $1,888,100




                                27
Appendix C. Summary of Navy Comments on the
            Findings and Audit Policy and
            Oversight Response
   The Deputy Assistant Secretary of the Navy (Acquisition Management) submitted
   overall comments, and the Naval Sea Systems Command submitted comments
   directed to the specific recommendations. The comments included detailed
   responses from all SUPSHIPs in our sample except SUPSHIP San Diego. The
   following are the synopsized SUPSHIP comments to each finding and Audit
   Policy and Oversight response.

   Finding A. Timeliness of Resolution and Disposition of Audit Reports
   Resolution. SUPSHIPs NNS and Gulf Coast stated that their CAFU officials
   understood the difference between resolution and disposition of audit reports.
   SUPSHIP NNS also stated that the errors in its CAFU reports did not contribute
   to the delays in settling its financial system audit reports. In addition, SUPSHIPs
   NNS and Gulf Coast believe that the primary causes for delays in resolving and
   dispositioning audit reports included staff shortages, personnel turnover, higher
   priority efforts, and a recalcitrant contractor.

           APO Response. We disagree that SUPSHIP NNS and Gulf Coast CAFU
   officials understood resolution and accurately reported it. If the CAFU officials
   understood the difference between resolution and disposition, they were not using
   that understanding correctly. We identified errors in the reported resolution status
   of several SUPSHIP NNS audits and helped its CAFU officials make the required
   changes. The SUPSHIP New Orleans ACO had suspended action on three of its
   financial system audits, but had not documented and reported this position.
   Resolution of audit reports is not complete until the ACO documents a position on
   the audit findings. Navy contract management officials cannot effectively assist
   with the settlement of audits when reported resolution information is not correct
   and complete.
   We recognize that staff shortages, personnel turnover, etc. can contribute to
   delays in resolving and dispositioning audit reports. However, prompt settlement
   of audit findings can result in the recovery of significant acquisition funds that
   could be put to better use. Navy contract management officials can mitigate these
   adverse conditions in several ways. Examples include increased:

          •   involvement by DCAA auditors through the timely briefing of audit
              findings, explanation of applicable regulations, and full participation at
              negotiations.

          •   use of withholds or notices of intent to disallow costs would minimize
              repeated reporting of similar audit findings and reduce the number and
              complexity of DCAA reports.

   Resolution and Disposition Delays. SUPSHIPs Bath and NNS took exception to
   the resolution and disposition delays for their audits as depicted in Table 1.


                                       28
SUPSHIP Bath could not verify the delays with its records. SUPSHIP NNS could
not reconcile the information with its March 31, 2003 CAFU report.

        APO Response. We provided officials at both SUPSHIPs with
calculations supporting the Table 1 delays, and with one exception, they
concurred. SUPSHIP Bath identified an incorrect resolution date for one
operations audit and we corrected Table 1 and the related finding narrative.

Management Controls. SUPSHIP NNS disagreed that they did not identify the
CAFU function as a separate functional area or test to determine if ACOs
followed CAFU policies and procedures. This area was reviewed and self-
certified during June 2003. SUPSHIP New Orleans disagreed with our
assessment and believes DoD Directive 7640.2 does not require the establishment
of a designated CAFU official at a field contracting activity. Additionally, the
July 1999 edition of the SUPSHIP Operations Manual does not identify a specific
requirement for a CAFU official.

        APO Response. Although we agree that SUPSHIP NNS did identify the
CAFU function as a functional area, we found no evidence of any testing. At the
time of our review, SUPSHIP NNS had been cited in the July 22, 2002
Management Control Certification Statement with a material weakness because
they had no Management Control Program Coordinator.

Although SUPSHIP Gulf Coast stated there was no requirement to establish a
CAFU official, they have now designated a responsible CAFU official, giving the
CAFU function more visibility.

Finding B. Collection of Penalties on Unallowable Costs

Penalty Assessments. SUPSHIP Gulf Coast disagreed with the assessment that
their ACO did not comply with the statutory and FAR requirements by failing to
assess penalties for expressly unallowable costs. Penalties were not assessed
because the ACO concluded that either the questioned costs were not expressly
unallowable or if expressly unallowable, the contractor met the conditions
necessary to obtain a waiver of penalties. The contractor agreed with the DCAA
conclusion that the questioned costs were unallowable. The ACO determined that
the overhead submission had been made on the basis of a good faith belief that the
costs were recoverable.

SUPSHIP Groton stated that the DCAA report incorrectly recommended penalties
associated with the calculation of the 1995 tax base for the contractor. The
contractor’s automated system identified incorrect amounts for warehouse
material charged on contracts. SUPSHIP Groton’s post negotiation memorandum
stated that the Government had determined that those costs were not subject to the
penalty provisions of the FAR and DFARS.

        APO Response. We disagree with the SUPSHIP Gulf Coast comments
because they do not reflect the requirements in the statute. If the ACO did not
consider these costs expressly unallowable, why wait years to obtain the ASBCA
rulings before settling the costs? The SUPSHIP response states that the


                                    29
contractor made the submission on the basis of a good faith belief that the
overhead costs were recoverable and this fact in conjunction with a belief that the
costs might not be considered expressly unallowable led the ACO to conclude
that waiving the penalties was appropriate. In addition to the audit opinion, the
ACO had legal counsel from inception agreeing that these costs were
unallowable. The statute does not include the ACO’s basis as a condition to
waive penalties.

The SUPSHIP Groton negotiation memorandum stated only that the $18,105 was
not subject to penalties under the DFARS 231.7002 and FAR 42.709. The costs
questioned of $18,105 was completely sustained by the negotiator. As stated in
our report, there was no explanation for why a cost that was questioned as
expressly unallowable and completely sustained did not also result in a penalty
assessment. The negotiation memorandum did not contain the explicit
explanation included by SUPSHIP Groton above to explain the basis for waiving
the penalty.
Finding C. Accuracy of Contract Audit Followup Information

Reported Costs Questioned. SUPSHIPs Bath, NNS and Gulf Coast took
exception to our conclusions on the inaccuracy of their reported costs questioned.
SUPSHIP Bath believed its amounts were reported correctly. SUPSHIP NNS
stated that it does not use costs questioned data from DCAA auditors to prepare
its CAFU reports. SUPSHIP Gulf Coast stated that SUPSHIP New Orleans relied
on costs questioned information from the DCAA auditors, and concurred with
SUPSHIP New Orleans’ reporting of only the amount of costs questioned that
exclusively affected the Navy.

        APO Response. We provided SUPSHIPs Bath and NNS with our
supporting calculations. SUPSHIP Bath concurred. SUPSHIP NNS agreed that
the costs questioned amounts for some of its reports were incorrectly reported.
We revised our report to reflect the SUPSHIP NNS amounts. However, we have
not verified the accuracy of that data. The intent of the finding was to quantify
the number of reports in error and the effect of any inaccuracies in reported costs
questioned. Each report needs to be closely monitored to ensure the accuracy of
CAFU information. In addition, during our SUPSHIP NNS site visit, we
collected examples of costs questioned information provided by DCAA to
SUPSHIP NNS for use in preparing its CAFU reports. Finally, SUPSHIP Gulf
Coast agreed when we explained to them the DoD Directive 7640.2 requirement
to report costs questioned without adjustment for government participation.




                                     30
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy
Director, Defense Contract Management Agency

Department of the Navy
Deputy Assistant Secretary of the Navy (Acquisition Management)
Naval Inspector General
Auditor General, Department of the Navy

Other Defense Organization
Director, Defense Contract Audit Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          31
Deputy Assistant Secretary of the Navy
(Acquisition Management) Comments




                       33
Naval Sea Systems Command Comments




                   34
35
Final Report
 Reference




Deleted




               36
     Final Report
      Reference




     Renumbered
     as Recom-
     mendation
     A.2.




     Deleted




37
Final Report
 Reference




Revised
Page 20




               38
39
               SUPSHIP Bath Comments
Final Report
 Reference




Page 5

Revised
Pages 5-6

Page 5




                                 40
     Final Report
      Reference




     Page 6

     Page 6




     Page 8



     Page 8




41
Final Report
 Reference




Page 11




Page 16




Page 22



Page 22




               42
SUPSHIP Groton Comments
                          Final Report
                           Reference




                          Page 18




                  43
               SUPSHIP Newport News Comments
Final Report
 Reference




Page 4




Page 5



Page 6




                                 44
     Final Report
      Reference




     Page 7




     Page 8




45
46
     Final Report
      Reference




     Page 10




     Page 17




47
Final Report
 Reference




Revised
Pages 17 &
27




Revised
Pages 17 &
27




               48
     Final Report
      Reference




     Page 17




     Revised
     Page 17




     Page 18




49
Final Report
 Reference




Deleted




Page 21




Revised
Page 22




               50
51
SUPSHIP Gulf Coast Comments




                   52
     Final Report
      Reference




     Page 4




     Page 6




53
Final Report
 Reference




Page 8




Page 11




               54
     Final Report
      Reference




     Page 12




     Deleted

     Renumbered
     as Recom-
     mendation
     A.2.




55
Final Report
 Reference




Page 15



Page 16




               56
57
Final Report
 Reference




Page 19




Revised
Page 20




               58
     Final Report
      Reference




     Page 21




     Page 22




59
Final Report
 Reference




Page 23




               60
Defense Contract Audit Agency Comments




                    61
